                                     NATIONAL SCIENCE FOUNDATION
                                      OFFICE OF INSPECTOR GENERAL
                                        OFFICE OF INVESTIGATIONS

                                    ACTION MEMORANDUM

TO: AIGI      File Number: A-0201 001 8                                            Date: 27 MAR 2002


                                                                               I           Page 1 of 1


    A proactive review of agency-wide purchase card statements generated five questionable purchases in
    the individual statement transactions for the SUBJECT. An interview with SUBJECT'S supervisor
    justified all expenditures.

    This investigation is closed.
